RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 20GANNETT CO., INC., THE GANNETT BENEFIT PLANS COMMITTEE, and JOHN DOES 1-10,
Petitioners,
v.
JEFFREY QUATRONE, on behalf of GANNETT CO., INC. 401(K) SAVINGS PLAN and all
others similarly situated,
Respondent.
As required by Supreme Court Rule 33.1(h), I, Tacy F. Flint, certify that the
Petition for a Writ of Certiorari in the foregoing case contains 7,509 words,
excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 30, 2020.
/s/ Tacy F. Flint
TACY F. FLINT
SIDLEY AUSTIN LLP
One South Dearborn
Chicago, IL 60603
(312) 853-7000

